aa

_

No.

I'

r

IN THE

f ■
(.■-

5 .

SUPREME COURT OF THE UNITED STATES

Dan Murray

— PETITIONER

(Your Name)

vs.
gabby Lumpkin, Dir.

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

Fifth Circuit Court of Appeals
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Dan Murray TDC3#1468676
(Your Name)
French M. Robertson, 12071 F.M. 3522
(Address)
Abilene Tx. 79601
(City, State, Zip Code)

(Phone Number)

!'

QUESTION(S) PRESENTED
1) If there is a set of plea agreements taken at the same time and the court
of appeals reverses a part of the appealed agreeemnt does this,
A) Start the AEDPA time for the entire agreement over or
B) Start the AEDPA time at the time at the end of the appealed portion or
C) Allow the indigent, pro se lititgant to appeal under AEDPA the only the
portion that was reversed?
2) When should the pro se, litigant calculate the time as beginning?
3) Does the HIPAA law prevent court appointed attorneys from handing over
defendant medical records to the prosecution without their permission?
4) Was trial counsel ineffective for recommending a "rehabilitation" facility
for a psychological opinion without doing an investigation of the facility?
5) Trial counsel admitted that he had four years to prepare for trial, but
was he ineffective for failing to attempt to exclude the report made by the
psychological facility?

LIST OF PARTIES

[X] All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
Stricland v. Washington 104 S.Ct. 2039 (1984)
Hartfield v. Thaler 2012 U.S. App. Lexis 24480
Hill v. Lockhart 474 U.S. 52, 58-59 (1985)
United States v. Munoz 408 F.3d 222, 226 (5th Cir. 2005)
United States v. Somner 127 F.3d 405, 40B (5th Cir..2997)
United States v. Cronic 104 S.Ct. 2039, 2046 (1984)

i

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

k

REASONS FOR GRANTING THE WRIT

5

CONCLUSION

17

INDEX TO APPENDICES
APPENDIX A

Decision from the Fifth Circuit Court of Appeals

APPENDIX B
APPENDIX C
APPENDIX D
APPENDIX E
APPENDIX F

ii

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

Hartfield v. Thaler 2012 U.S. App. Lexis 244B0................
Hill v. Lockhart 474 U.S. 52, 5B-59 (19B5)........................
Missouri v. Frye 132 S.Ct. 1399 (2012)...............................

B
15
..9

Roberts v. Cockrell 319 F.3d 690 (5th Cir. 2003)..

7

Strickland v. Washington 104 S.Ct. 2039 (19B4)
United States v. Munoz 40B F.3d 222, 226 (5th Cir. 2005)
United States v. Somner 127 F.3d 405 (5th Cir. 1997)..

10
15

Wiggins v. Smith 123 S.Ct. 2527 (2003)...............................

. 13

STATUTES AND RULES

OTHER

iii

15

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[x] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[X] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is

to

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION
|X ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was

7-20-20________________

[X] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix_______
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
1) Sixth Amendment to the U.S. Constitution
2) Fifth Amendment to the U.S. Constitution
3) Fourteenth Amendment to the U.S. Constitution
4) Article 2 of the U.S. Constitution "Contract Clause"
5) AEDPA 28 USC §2244/ Chapter 28 2261-2266
6) Certified Question of Constitutional Law

3

STATEMENT OF THE CASE
Murray was given a plea agreement, one section was appealed
the other was not.

The A.G. persuaded the court that AEDPA, had

to attach from the initial unappealed section.

Murray argues

that to do so was a waste of judicial resources and that both
sections should be heard because they both apply to one plea agree­
ment and to make him file writs one at a time for each section
would not make sense.
Second, Murray asks this court to waive the AEDPA and to
hear a request for a certified question of law which has never
been resolved by any court.

Specifically, whether or not the trial

counsel can violate HIPPA and provide the state with a copy of a
a medical record to wit a psychological report.

4

REASONS FOR GRANTING THE PETITION
This is long because cf the separation of two charges from
one plea agreement.

Murray asks the court to bear uith him.

Murray was indicted for three crimes on two indictments,

His

attorney lead him to believe that there was no hope for trial and
the sole way to prevent conviction with stacked life sentences was
to accept a plea agreement.

Uhich Murray did, but the trial court

in it's haste sentenced him t-o thirty (30) years for a second degree
felony .

This of course, required a reversal on appeal as it was

outside the range of sentencing the maximum being 20 years.
separated the appeal timetables.
ordinary circumstances"

This

Murray argues this is "extra-

and as such the court should toll the

time for review regarding the circumstances for application.
Additionally, there is a constitutional question of law that merits
review, which has also in the past justified tolling.
Applicant Murray currently confined to the TDCO pursuant to
conviction for possession of child pornography in case number 366802A8-05 and indecency with a child in case no. 366-80173-06 in
the 366th Judicial District Court of Collin County Texas.

Both

the A.G. and Murray agree that the state remedies are exhausted.
Of course, the devil is in the details.

Trial court case no.

U366-80173-06; the convictions for aggravated sexual assault and
possession of pornography were affirmed by the Court of Appeals/in both cases (numbers PD-0165-11 and PD-0166-11) but were refused
on September 21, 2011.
were denied.

Proper and timely motions for rehearing

The original application for a writ of habeas

5

corpus attacking the sexual assault and possession of pornography
was filed in state court on February 5th 2013 (CCA no. Ur-71,
258,-03).

An amened application was filed on April 2nd 2015)

Trial court case no. U366-80248-05; where the court sentenced
Murray in the indecency with a child cause to confinement for twenty
years.

An appeal was prosecuted and the conviction was ultimately

affirmed Murray v. State, no. 05-12-00922-CR (Tex.App. Dallas Oan.
29th 2014) .

On April 2nd 2015, a habeas corpus application Ur-71,

258-04) was filed challenging the conviction for indecency with a
child.
habeas corpus proceedings;

The trial court did not hold a

hearing on either writ application.

On May 12th 2015, the trial

court entered it's finding of fact and conclusions of law and
recommende'd that relief be denied in both cases.

On January 6th

2016 the Court of Criminal Appeals denied relief without written
order in both cases.

Accordingly Murray has exhausted all avail­

able state remedies.
Trial court case number U366-80173-06; Applicant Murray's
timely motion for rehearing on his petition for discreationary
review was overruled'by the Court of Criminal Appeals on November
16th 2011 meaning the 1-year time limit imposed by the AEDPA began
on Feb . 14th 201 2 .

The original habeas application was filed

in State District court on February 5th, 2013 and was finally
denied on January 6th 2016.

The habeas corpus application in the

trial court case number U366-80173-06 is timely if filed on or
before January 14th 2016.

6

Trial court case number LJ366-80248-Q5; Murray's conviction
was affirmed on January 29th 2014 meaning the 1-year time limit
The original

imposed by the AEDPA began on April 29th, 2014.

habeas corpus application was filed in state district court on
April 2nd, 2015 and finally denied on January 6th, 2016.

The

habeas corpus application in trial’ court case number U366-80248-05
is timely if filed on or before February 2nd, 2016.
The U.5.D.C. Magistrates Report held Murray uas not entitled
to file a federal habeas application;

Document 19 page 6, page ID

#2927 states in part "Petitioner is mistaken.

Because Petitioner

did not file-da PDR in the indecency conviction, the conviction
became final when the time forffiling a PDR expired.
Cockrell, 319 F. 3d 690 n. 24 (5th Cir. 2003)."

Roberts v.

Moreso, the Hon.

Magistrate Judge made a specific finding that eliminated Murray's
ability to attack the indency charge,

"...he did not challenge

the indencency with a child conviction in the first application..."
Consequently, the petition is time barred in the absence of any
equitable tolling provision."
Murray responds that the Magistrate Judge has miscalculated
as the AEDPA deadline uas met uith.extra time left over.

According

to the initial filing the fact is that there uas almost contin­
ually an effort by Murray's attorneys to bring the state habeas
to court.

Murray asserts that he is not challenging only a

judgment of conviction but more importantly a PLEA AGREEMENT and
in this case it is the same plea agreement that is memorialized
under one conviction but tuo separate cause numbers.

His base

argument is simple due process should not allou him to be penalized

7

because the Judge in the trial court did not realize that his
second degree falony only carried a maximum sentence of only 20
years.
Murry asked that the U5DC and the Honorable Fifth Circuit
Court of Appeals address the issue as a "certified question of
Constitutional Law".

In the case of Hartfield v. Thaler, 2012

U.S. App. Lexis 24480 the court agreed taht there should be a
waiver of the AEDPA in order to examine the question of whether
or not Mr. Hartfibid's right to a speedy trial was violated under
the U.5. Constitution.

The crucial question before the court in

that case was "was there a valid judgment of as tate court to which
one could consider Hartfield a "person in custody by a state
court"?"

While the facts differ and the question can be framed

as should a citizen be required to attack a plea agreement on
habeas when that same plea agreement is being attacked on appeal?
Murray argues that this issue merits review under tha logic that
most pro se petitioners would not consider and seemingly violates
many state rules moreso it denies adjustments and issues to the
sentence that may heed to be attacked in a later habeas and
raises questions of judicial economy.
By turning to 17 Fed. Prac. & Proc. Juris 2nd §4038 in ref­
erence to a pocket part/section 1254(3) the work gives the basics
of how to request a certified question of constitutional law.
The first part of this analysis to frame the question of howw
the issues impact theTIU.5. Constitution.

The answer is that there

are issues with the due process and equal protection clause of
the Bill of Rights.

Becasue, the initial appeal attacked the

sentence that was a part of the single plea agreement and when
that plea was reversed in order to allow for a complete resent-

8

encing phase of the conviction.

Not merely a "reformation" of the

sentence but father a new plea agreement entirly.

This would

have required a new plba agreement and in fact there was a new
opportunity to be heard regarding the issues before the court.
During that hearing the court made it clear that this was an
amendment to thb original agreement and that I could plead not
guilty and proceed to trial but counsel informed me that the sole
way that I could ever leave prison was to plead guilty to the
charge.

Murray argues that this amendment to the plea agreement

changed the agreement and made the "finality" aspect begin from
the date of the re-pleading.
The second part of this analysis5is to ask the question of
how this would impact other convictions.

First, Murray points

out that there are dozens of times the courts have held that the
plea is reversed for a new hearing and such will give federal
courts a chance to rule upon the nature of these pleas.

Second,

according to Missouri v, Frye 132 S.Ct. 1399 (2C12) "plea bargains
have become so central to the criminal justice system that def­
ense counsel have responsibilities to the plea bargain process,
responsibilities that must be met to render the adequate assist­
ance of counsel that the Sixth Amendment requires for the critical
stages."

Going on to explain that 97% of all convictions are had

by plea agreements.

As such the question of "when" a plea agree-

ment begins and ends are important to be addressed by the Supreme
Court.
In this case Murray asserts that there are two points that
merit review in this context.

The first point is that there is

a question of privacy and the violation of law prior to the plea
agreement.

Specifically, whether it was proper for Murray's
9

r .

trial counsel to provide to the District Attorney a copy of the
psychological report made at the Sante facility, in violation of
the HIPPA medical privacy law.
However, to properly understand these issues first we must
review the allegations of ineffective assistance?'of counsel.
FACTS; Following the motion to supress evidence within the D.A.'s
possession consisting of the records of Sante', a treatment
facility for behavioral problems related to drug and alcohol
addiction, which trial counsel had recommended Murray attend to
This

act as mitigation for the punishment phase of the trial.

report was obtained by the D.A. through a request from that
facility.

But the very existence of same would not have been

even a fact if the trial counsel had not informed the D.A. of same.
Further this is an undisputed fact that trial counsel Hardin
informed the D.A. about the existence of the Sante

report.

See Motion for New Trial RR I, prage 34, line 1-6.

The question

one should address is WHY???

What possible strategy could compel

an attorney to provide the state with incriminating evidence
during plea bargain negotiations?
GRDUND ONE:

As such we should consider;

Trial counsel recommended Murray enroll in the

program at Sante without doing any real investigation into

the

facility or the program offered by the facility.
Under the now familiar test of Strickland v. Washington, 104
S.Ct. 2039 (1984) it is well established that a criminal defendanttshould be afforded effective assistance of counsel.

Frye

ibid extends that idea to the pre-trial plea bargain phase.
The issue under Strickland, ibid is frequently the question
of whether or not "prejudice" was shown.
10

"The benchmark for

judging any claim of ineffectiveness must be whether counsel's
conduct so undermined the proper functioning of the adversarial
process that the trial cannot be relied on as having produced
a just result."

Strickland 2057 ibid.

The U.S.D.C. Magistrate

Judge's finding specifically stated there was no prejudice to any
of the errors .

In effect, the Honorable A.G. made no argument

that most of the actions of trial counsel fell below the level
of ocmpetent counsel.
in any unjust outcome,

The essence was that this did not result
Here the argument presented to the court

and the Hon. Court of Criminal Appeals was simply the notion that
trial counsel Hardin did not investigate the "treatment" at the
behavior facility.

Sante

As a fact this was almost undisputed.
echos the notion of "how

The D.A. simply argues and the A.G.
did it change the outcome?"
discussion of the errors.

Murray will reply at the end of the
But for clairity, Murray argued that

the Hon. John Hardin was simply not trained nor did he have a
background in psychology to determine if the Sante

facility was

a proper place for Murray to be "treated" or assessed for "treatment" .

Especially, cons idering Murray had no prior criminal

history beyond a traffic ticket.

Further, trial counsel had

Murray seek treatment for alcholism when he entered the facility
Murray informed them that he had not had a drink in months.
GROUND TWO : Trial counsel revealed the fact of Murray's "treatment"
at Sante

without gaining Murray's permission,

And without

any agreement that could be construed as agreement for the use
of that information in violation of HIPPA.
Again the Motion for New Trial confirmed this fact in a

11

live evidentiary hearing where habeas attorney Gasuta questioned
Hardin about, the use of theiinformation.

See MNT RR 25-26.

Mr. Hardin was by his own admission a member of the Texas
Criminal Defense Lawyers Association, an experianced attorney with
many years of practice, an ex-Assistant District Attorney and had
worked as an advocate for prosecution of sex offenders while in
that office.

See MNT PAGE 5B, Doc 3-1 page 1 76-1 78.

Once the motion to suppress the Sante' report was denied,
trial counsel Hardin went on to attempt to negotiate a plea agreement.using the Sante

report to "mitigate" the sentence.

GROUND THREE: Trial counsel failed to arrange for Murray to
be interviewed by a forensic psychologist in a timely manner.

The

which

fact is that trial counsel Hardin referred Murray to Sante

was part of a "behaviour treatment facility" and not a psych­
ologist or psychiatrist.

However, prior to trial Murray hired

Stephen Finstein a pshchologist who told him that Mr. Hardin was
aware how long it took to prepare for trial and do a proper
examination.

As it was only two weeks he could not develope a

proper diagnosis.
any benefit.

As such the referral was made to late to be of

See Doc 3, exhibit 8 affidavit of Stephen Finstein.

This was despite the fact that for 18 months Hardin was aware that
the State had damaging information in terms of the Sante

report.

The results finally conducted during the habeas investigation
are overwhelmingly positive for Murray and demonstrate that he
is a very low risk individual who has no chance of re-offending.
Trial counsel recognized that the information in the Sante'
report was not favorable but he did nothing. See Doc 3, exhibit 8
page 80.
12

GROUND FOUR: Trial counsel ‘Hardin failed to properly prepare for
trial, including failing to prepare to litigate the admissibility
or exclusion of the Sante1 reports.

Continuing from the same

notion as above Murray argues that not only was Hardin lacking
in investigation but he was unconstitutional in his diligence.
Specifically Hardin limited his investigation without justification
in direct violation of Wiggins v. Smith, 128 S.Ct. 2527 (2003).
See Headnote 7, "Counsel's strategic choices made after thorough
investigation of law and facts relevant to plausible options are
virtually unchallengable on claim of ineffective assistance.UrHeadndnbe 11 ,

"Decision of counsel' not to expand their investigation

of petitioners life history for mitigating evidence for penalty
phase of petitioners murder trial beyond presentence investigation
(PSI) report and department of social services records fell short
of prevailing professional standards in capital cases as required
to support claim of ineffective assistance; despite well defined
norms which provided that investigation into mitigating evidence
should have comprised efforts to discover all reasonably available
mitigation evidence and evidence to rebut any aggravating evidence
counsel abandoned their investigation of petitioner's background
after having acquired only rudimentary knowledge of his history
from a narrow set of sources."

As such Murray claims a constit­

utional liberty interest in having the Finstein report which
contradicted and argued against the idea that he was ineligible
for probation.
GROUND FIVE: Trial counsel failed to investigate the disk
drives on which the pornography was allegedly found.

13

Murray

worked as a computer professional for Alcatel in programming and
various hardware applications.

As such Murray informed trial

counsel Hardin that he did not put child pornography son any disk
drive he owned and that he had bought several drives "used" and
put them in a box.

And, if they contained pornography it was a

surprise to Murray.

Hardin made no effort to examine these images

and determine if they were pornography.

Moreso, Murray argues

that an investigation was necessary atithe habeas level to confirm
if Murray had ever accessed the images.

All computers are time

and date stamped as to when and how they were accessed.

Murray's

argument was simple if they had porn on them it was from before
Murray opened them.

Because child porn has a requirement when, it

is in the "electronic" form that it be accessed in order to be
considered "possessed" by the person whose computer it appears on.
GROUND SIX: Trial counsel failed to object to the failure of
the trial court to properly effectuate a plea bargain.

Murray

agreed to a plea bargain by which his three pleas of guilty would
be handled unitarily.

However, during the sentencing colloquy,

the trial judge imposed only one sentence, causing the conviction
in count 2 of the trial court case number 366-80173-06 to be served
separtily.

Hardin made no abjection to the trial court's actions

see Doc 3, exhibit 7 page 6-7.
Murray argued in the Texas Eourt of Criminal Appeals that the
trial court had sentenced him to an illegal sentence in the one
second degree felony to which he had plead guilty, the indencency
with a child.

The state argued that his plea bargain calleed for

14

for a unitary thirty year sentence for the aggravated sexual
assault and the indecency with a child case.

Neither opinion

prevailed as the court held that in reality the court simply
failed to sentence Murray in the indecency with a child case
properly.
A defendant is entitled to effective assistance of counsel
when entering a guilty plea Hill v. Lockhart, 474 U.S. 52, 58-59
(1 985) .

It is true that any review of counsel's representation

is highly deferential and reviewing court indulges a strong
presumption that counsel's conduct fell within a wide range of
reasonable representation accord Strickland ibid.

Nevertheless

there is no presumption which can excuse counsel's lack of
participation in this case,

A guilty plea is not knowing or

voluntary if made as a result of ineffective assistance of counsel,
when it is established that, but for ocunsel's deficiencies the
defendant would have pleaded not guilty and insisted on going to
trial.

Lockhart ibid page 60.

It is clear the plea bargain was breached as Murray did
not recieve the sentence he was promised.

"If a defendant pleads

guilty as part of a plea agreeemntthe government must strictly
adhere to the terms and conditions of its promises in the agree­
ment United States v. Munoz, 4D8 F.3d 222, 226 (5th Cir. 2005)
And , "To assess whether a plea agreement has been violated, this
court consideres- "whether the government's conduct is consistent
with the defendant's reasonable understanding of the agreement."
See United States v. Somner, 127 F.3d 405, 408 (5th Cir. 1997)
Murray argues the failure to bring the breach, and violation

15

□f the agreement to the attention of the trial court was prejud­
icial.
GROUND SEVEN; Trial counsel Hardin failed to obtain and
present favorable character evidence which was easily obtainable .

During his "investigation" Hardin completely failed to

prepare for the eventuality that there would be a trial or that t
there would be a punishment phase of that trial.

He did not seek

character witnesses prior to trial nor were any character witnesses
interviewed, prepared or presented at the punishment phase.
Character witnesses were available because Murray was a
respected resident of Collin County who interacted with many
people.

There was available witnesses within the community who

not only knew Murray's actions and trusted him, but who witnessed
interactions between him and the Complainant during the times
the Complainant alleged abuse.

Sevaral of these witnesses could

have crucial testimony relating to the notion of reduction of
punishment, one Charlotte Ragan would have been especially help­
ful and was especially eager to do so, because she knew the
Complainant very well interacted with her as her aunt throughout
this time, knew her moods and could testify that the periods of
time in question did not appear to be periods of great stress
for the complainant.

See affidavit.

To condlude this section Murray asks the court to read one
part of the MNT transcripts where trial counsel was asked did
Mr. Murray ever admit guilt to you?

His reply was "NO".

Yet

trial counsel believed that the charge was indefeatable and could
not be won.

This merits review under the' Certified Question of

Law exceptions.

16

Uhere in our legal jurisprudence did this country lose the
ability for an innocent man to defend himself,

Even with a 60,00D.oo

attorney Murray was told over and over that he had no hope for a
win agains the charge of sexual assault.

If there is a single

i

innocent man in prison when will this court or any other recognize
that the system is in need of review and hear questions that impact
the Constituion?

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

L

ft]
Date:-. 5Itfj olQ2&

17

